<html>
<title> - STREAMLINING EMERGENCY MANAGEMENT: IMPROVING PREPAREDNESS, RESPONSE, AND CUTTING COSTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   STREAMLINING EMERGENCY MANAGEMENT:
                   IMPROVING PREPAREDNESS, RESPONSE,
                           AND CUTTING COSTS

=======================================================================

                                (112-56)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 13, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
70-682                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                 7_____

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                   JEFF DENHAM, California, Chairman
TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD,               Columbia
    Arkansas,                        HEATH SHULER, North Carolina
  Vice Chair                         MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      DONNA F. EDWARDS, Maryland
PATRICK MEEHAN, Pennsylvania         BOB FILNER, California
RICHARD L. HANNA, New York           NICK J. RAHALL II, West Virginia
CHARLES J. ``CHUCK'' FLEISCHMANN,      (Ex Officio)
    Tennessee
JOHN L. MICA, Florida (Ex Officio)

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                               Panel One

Fugate, Hon. Craig, Administrator, Federal Emergency Management 
  Agency.........................................................     6
Hunter, Dean, Deputy Director, Facilities, Security, and 
  Contracting, U.S. Office of Personnel Management...............     6
Jadacki, Matthew A., Assistant Inspector General, Office of 
  Emergency Management Oversight, Office of Inspector General, 
  Department of Homeland Security................................     6

                               Panel Two

Dayton, Mike, Acting Secretary, California Emergency Management 
  Agency.........................................................    30
Metcalf, Chief William R., EFO, CFO, MIFireE, Second Vice 
  President, International Association of Fire Chiefs............    30
Stammer, Keith, Director, Joplin/Jasper County Emergency 
  Management Agency..............................................    30
Wilson, Joe, President, Safety and Security Group, Industrial 
  Systems Division, Federal Signal Corporation...................    30

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Dayton, Mike.....................................................    39
Fugate, Hon. Craig...............................................    46
Hunter, Dean.....................................................    63
Jadacki, Matthew A...............................................    69
Metcalf, Chief William R., EFO, CFO, MIFireE.....................    80
Stammer, Keith...................................................    86
Wilson, Joe......................................................    96

                       SUBMISSIONS FOR THE RECORD

Responses to questions from the Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management:

    Fugate, Hon. Craig, Administrator, Federal Emergency 
      Management Agency..........................................    53
    Hunter, Dean, Deputy Director, Facilities, Security, and 
      Contracting, U.S. Office of Personnel Management...........    67

[GRAPHIC] [TIFF OMITTED] T0682.001

[GRAPHIC] [TIFF OMITTED] T0682.002

[GRAPHIC] [TIFF OMITTED] T0682.003

[GRAPHIC] [TIFF OMITTED] T0682.004

[GRAPHIC] [TIFF OMITTED] T0682.005

[GRAPHIC] [TIFF OMITTED] T0682.006



                   STREAMLINING EMERGENCY MANAGEMENT:
                   IMPROVING PREPAREDNESS, RESPONSE,
                           AND CUTTING COSTS

                              ----------                              


                       THURSDAY, OCTOBER 13, 2011

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 8:34 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order. First, let 
me welcome FEMA Administrator Fugate, Mr. Dayton, Secretary of 
California Emergency Management Agency, and all of the 
distinguished witnesses, and thank them for their testimony 
today.
    Today's hearing is on streamlining emergency management, 
and how we can improve preparedness and response, while cutting 
costs. I believe reducing costs goes hand in hand with 
improving our emergency management system. Inefficiencies and 
red tape cost money and bog down our response system. And today 
we will examine how we can streamline and cut through that red 
tape.
    Last month Ranking Member Norton and I introduced the FEMA 
Reauthorization Act and the Integrated Public Alert and Warning 
System Modernization Act. As our committee reviews these 
important pieces of legislation, we must ensure we don't just 
reauthorize the same old ways of doing things, but ensure we 
are learning from past disasters, and making reforms that are 
much needed.
    FEMA was originally created in 1979 by Executive order, and 
operated for nearly 30 years without explicit authorization and 
statute. FEMA was first authorized in statute in 2006 through 
the Post-Katrina Act, and that authorization expired last year. 
While FEMA can continue to operate without explicit 
authorization, authorizing FEMA in the law helps to provide 
congressional guidance in the operations of the agency.
    So far this year we have had 86 major disaster declarations 
and 26 emergency declarations, exceeding the highest yearly 
total from prior years. And last month we had the very real 
possibility of the Disaster Relief Fund running out of money, 
going into question our ability to respond and provided needed 
resources following disasters.
    The reality is we can both cut costs and improve our 
responses to disasters. The very things that impede 
preparedness and drag out response are the same things that 
usually result in higher costs. For example, the longer it 
takes to push disaster aide out the door, the longer it takes 
communities to recover, meaning we are spending more money in 
rebuilding and administrative costs.
    Cutting through unnecessary red tape and streamlining is 
critical in saving lives, restoring communities, and saving 
taxpayer dollars. We also must ensure resources are properly 
leveraged. Ensuring we are prepared at all levels from 
individuals to local communities and States will go a long way 
in saving lives and minimizing costs.
    The urban search and rescue system and the emergency 
management system compact reauthorized in our legislation both 
provide, with small investments, significant capacity at the 
State and local levels, for resources to be leveraged. Despite 
the chance to address some low-hanging fruit and improving our 
emergency management system and cutting costs, our subcommittee 
has had hearing after hearing since Hurricane Katrina, pushing 
for FEMA to look for ways to streamline its onerous and often 
outdated regulations and policies.
    Many of FEMA's regulations and policies have created so 
many hurdles and so much red tape that communities devastated 
by disasters have often found it frustrating to navigate the 
process.
    Another example is in 2000 Congress enacted the Disaster 
Mitigation Act that included provisions requiring FEMA to 
implement cost-estimating to help communities rebuild faster. 
By all accounts, this one change could help streamline one of 
FEMA's key disaster assistance programs. However, it is now 11 
years later, and FEMA has yet to implement those provisions.
    I also understand FEMA is engaged in a bottom-up review of 
its Public Assistance Program. However, we have not yet seen 
results from this review. While I am pleased these steps are 
being taken, I am worried these actions have taken just too 
long. With high unemployment, budget deficits, and everyone 
having to tighten their belts, the red tape is just too 
expensive. That is why it will be important today to examine 
how we can improve our emergency management system, and what 
may be the best legislative solutions to achieve those 
efficiencies.
    I hope today we can hear from our witnesses on how our 
preparedness and response systems can be streamlined and 
improved. I look forward to working with Administrator Fugate, 
members of the committee, and other stakeholders on 
reauthorizing FEMA. I thank the witnesses for being here today 
to address these important issues.
    I would like to now recognize Ranking Member Norton from 
the District of Columbia for 5 minutes to make any opening 
statements she may have.
    Ms. Norton. Thank you very much, Chairman Denham, and thank 
you very much for calling this hearing. And I am pleased to 
welcome our witnesses to today's hearing to discuss 
streamlining, cost-cutting, and improving preparedness and 
response to natural and terrorist events.
    Over the past several years, this subcommittee held 
numerous hearings to ensure that our Nation is prepared to 
respond to disasters using an all-hazards approach. As part of 
the Post-Katrina Emergency Management Reform Act of 2006, 
Congress directed FEMA to develop a national preparedness goal 
and system. Last month FEMA issued the goal, and has been 
directed by the President to issue the national preparedness 
system later this year.
    I believe that the Nation is generally pleased with 
improvements to emergency preparedness response and overall 
management of the--management of disasters, as the public 
responds to FEMA's management of the many major disasters 
throughout the Nation this year shows.
    Last Congress, this subcommittee held a hearing on lessons 
learned from Hurricane Katrina, and discussed the need to 
streamline emergency management and improve FEMA's use of 
existing authorities.
    Assistant Inspector General Matthew Jadacki will testify 
today that FEMA should take many of the same steps that were 
recommended last year to improve its programs and policies. One 
area that the inspector general focuses upon, and that was of 
particular concern to me when I chaired this subcommittee, was 
FEMA's administration and implementation of the Public 
Assistance Program. While I commend FEMA for initiating a 
bottom-up review of the Public Assistance Program, I am 
concerned that the inspector general must again comment, for 
example, on instituting a cost estimating system for repair and 
reconstruction.
    The Congress executed--the Congress insisted upon a--that 
FEMA--I am sorry, there is a typo here--the Congress 
experienced a FEMA emergency of its own in August when the 
administration submitted a $500 million supplemental 
appropriations request to provide funding for FEMA through the 
end of the fiscal year.
    FEMA then instituted an immediate needs--instituted 
immediate needs funding, authoring payments only for certain 
categories of assistance. By mid-September, FEMA indicated that 
it had insufficient funds to make it through the end of the 
month. However, the last week of September, FEMA found that it 
had enough funds to make it through the end of the month. I am 
interested to know how and when FEMA discovered this money.
    I am particularly concerned about the Federal Government's 
response to the August 23, 2011, earthquake in the National 
Capital region. In 2008, the national response framework 
required each Federal agency to plan for its role in a 
coordinated Federal response to an emergency. Have Federal 
agencies met this requirement?
    Most important, has OPM, or the Office of Personnel 
Management, consulted with FEMA on how to guide agencies 
concerning an all-hazard approach to disasters? If so, what 
explains the Federal Government's response to the 5.8 magnitude 
earthquake in August. The earthquake occurred at 1:51 p.m., but 
agencies appeared to act haphazardly on their own concerning 
dismissal, ensuring a rush to the Metro, which no 
transportation system could have effectively handled. OPM did 
not send notice to officially dismiss Federal employees until 
4:00 p.m.
    Ten years after 9/11, there appears to be no all-hazards 
site or communications vehicle widely known to the public and 
to Federal agencies. Instead, cell phones jammed because 
Federal employees and others did not know to go to a site or to 
text for information, or where in the world that site was.
    If the point of preparedness is to prepare for the 
unexpected, such as an earthquake in this region--which was a 
perfect proxy for a terrorist attack--there is little evidence 
that the Federal Government is prepared for emergencies where 
there is no notice, and that requires disseminating information 
to the public, or is prepared for an unexpected evacuation from 
the District if evacuation is required at all.
    I understand the FEMA conducts post-disaster meetings to 
analyze lessons learned and to develop best practices. Did 
such--had such a post-disaster meeting occurred here with FEMA 
or the Department of Homeland Security and the region following 
the earthquake? Over the last few years, FEMA has made 
improvements, many because of lessons learned from prior 
disasters. What about a disaster where the Nation can least 
afford it, at the seat of government?
    I look forward to the testimony from all of today's 
witnesses, and thank them all for their testimony today. And 
thank you, Mr. Chairman.
    Mr. Denham. I now call on Mr. Barletta for a brief opening 
statement.
    Mr. Barletta. Thank you, Chairman. And I want to thank the 
panel for coming here. It is very timely for me, being a Member 
of--in a district in northeastern Pennsylvania that was--that 
saw the worst flood in its history. And, Mr. Fugate, nice to 
see you again. We met in Duryea, Pennsylvania, with the Vice 
President.
    First of all, I want to comment FEMA on their reaction time 
to this disaster. As I said, this was the worst disaster in 
northeastern Pennsylvania history. And we had boots--FEMA had 
boots on the ground very quickly, which was very good to see.
    I am just going to make a couple of comments of how--what I 
saw and my experience, how I think we could improve our 
reaction to some of these disasters.
    One of the problems that I see that has happened--and I am 
holding up one of the pictures--this has been community after 
community after community. I don't know if the national media 
never really focused on how bad this disaster is, but some of 
these communities have been totally wiped out. You will go in 
an entire town where you can't even see the homes, because 
everyone's personal belongings literally lined every street, 
where you could not even get to the sidewalks.
    The problem here is that the public assistance portion 
comes too slow. And what is happening is the municipalities are 
not able to haul the debris away, because they are unsure 
whether or not they are going to be reimbursed, how much they 
are going to be reimbursed. Some of their costs are $300,000, 
$400,000, $500,000, and they just stopped hauling the personal 
belongings away. So I think we need to find a way to get the 
public assistance help to these communities, to these 
municipalities, so that they could start cleaning up the 
communities.
    I would also like to talk a little bit about the hazard 
mitigation, and the way it is calculated to get the money to 
the States. Because it is after the individual assistance, the 
public assistance, then we get to the hazard mitigation. And 
what is happening there is many people are cleaning out homes 
that are clearly--they are never going to live in again. And it 
is sad to see senior citizens sweating, dragging out their 
belongings, when it is obvious they are not going to live there 
again.
    And it is a double cost to the municipality, as they are 
hauling this stuff away, and then we are going to come in there 
and most likely either buy these folks out or--you know, we 
need to tell them to stop. And I think if we had a better way 
to calculate the hazard mitigation, we might be able to save 
some money for the municipalities and for the Federal 
Government.
    I also think there is a disconnect. As quickly as FEMA 
comes into the disaster, what happens in a lot of these 
communities, most of the public officials are part-timers, 
part-time mayor, part-time supervisors. I was a full-time 
mayor. So we had a plan if there was a disaster. But what 
happens, FEMA was very quickly to come in and talk to the 
public officials, but many of the public officials then really 
didn't know how do they connect to the residents when there is 
no power, people are displaced all over the place. And many of 
the public officials really didn't know what to do or what the 
process is.
    And I actually closed my offices here, sent our people 
down, and we set up little stations in some of these 
communities to help the residents, because they were literally 
just coming into the municipal buildings with a million 
questions. So I think there needs to be more communication with 
FEMA and the public officials, educating them on what they 
should--how they get to the residents, how they get messages to 
them.
    And, you know, I think that the very early stages is where 
I think we need to reassure the people who are affected by 
these disasters that the Federal Government is here to help.
    So that is just some of the remarks I want to make. And I 
will be--again, during the public question portion, we will--I 
am sure we will have some more questions. Thank you.
    Mr. Denham. Thank you. And I would like to welcome our 
witnesses here today. On our first panel we have the Honorable 
Craig Fugate, administrator, Federal Emergency Management 
Agency; Mr. Matthew Jadacki, assistant inspector general, 
emergency management oversight, Department of Homeland 
Security; and Mr. Dean Hunter, deputy director, facilities, 
security, and contracting, U.S. Office of Personnel Management.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Denham. Without objection, so ordered. Since your 
written testimony has been part of the record, the subcommittee 
would request that you limit your oral testimony to 5 minutes.
    Administrator Fugate, welcome. You may proceed.

TESTIMONY OF THE HONORABLE CRAIG FUGATE, ADMINISTRATOR, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY; MATTHEW A. JADACKI, ASSISTANT 
 INSPECTOR GENERAL, OFFICE OF EMERGENCY MANAGEMENT OVERSIGHT, 
 OFFICE OF INSPECTOR GENERAL, DEPARTMENT OF HOMELAND SECURITY; 
  AND DEAN HUNTER, DEPUTY DIRECTOR, FACILITIES, SECURITY, AND 
        CONTRACTING, U.S. OFFICE OF PERSONNEL MANAGEMENT

    Mr. Fugate. Good morning, Mr. Chairman and Ranking Member 
Norton. In talking about the disasters this year, the DRF, the 
complexity of providing assistance, both under individual 
assistance and public assistance, and looking at how we can be 
more cost effective, we are in agreement. It is getting there 
that is the challenge.
    One of the challenges we have faced is because of the 
magnitude of disasters as this administration came into. We 
have been working hard to, A, recover dollars from older 
disasters. That has been something that, in the last 2 years, 
has returned billions of dollars back into DRF from open 
disasters that had not been closed, from mission assignments 
that had not been closed out, from projects that had been 
completed by States but had balances that had never been closed 
out. To a large degree, that is why the DRF made it to the end 
of the fiscal year without hitting zero.
    But I would also like to point out that the disaster relief 
fund is not about the disasters we have had. It is also about 
the disasters that can occur with no warning. And, Mr. 
Chairman, you know we don't get a forecast for earthquakes. And 
so, although--we were able to pull recoveries that we had 
planned for in fiscal year 2012 forward, and were able to not 
shut down individual assistance.
    I am under no allusions that the DRF had sufficient funds, 
if we had had a catastrophic disaster occur in that timeframe. 
And so our efforts to ensure that during that process we did 
not stop individual assistance, which we felt was the highest 
priority in the open disasters, we pretty much shut down 
everything else we could to make that goal line, so that we 
could make it to the continuing resolution and start back up 
and begin funding all the prior permanent work we had stopped.
    But I need to emphasize that the disaster relief fund has 
to be in a position that, when the next disaster strikes with 
or without warning, we have the resources we need to begin that 
response. As was pointed out, in Pennsylvania, up and down the 
coast in Irene, we were moving teams ahead of the storm, we 
were moving teams and resources prior to request from the 
Governors for disaster declarations. This is part of the legacy 
of the Post-Katrina Emergency Management Reform Act. We learned 
the lesson that the Federal Government cannot wait until the 
disaster overwhelms States to begin moving teams and resources. 
But that requires that there are balances in the DRF to support 
that.
    The other issues that have been raised, having been a 
customer of FEMA as the State of Florida, I understand the 
complexity of public assistance, unfortunately, about as well 
as anybody. One of our goals at FEMA has been to look at the 
regulatory requirements, and what we can relieve.
    As far as cost estimation and some of the work we are doing 
in the bottom-up review, we are looking at a two-stage process, 
particularly in permanent work that is--such as construction in 
buildings or large-scale public works projects. The current 
program is a reimbursement program where we have multiple steps 
of trying to manage a project by literally reimbursing 
construction over the period in the life of that event. That 
requires a high degree of administrative cost, oversight, and 
review that becomes very complex and very costly to administer 
those dollars.
    We are looking at a different way to approach that in 
breaking large projects into two parts. One is a design phase, 
pretty much what anybody else would do if they were going to 
build a big building. You just don't go out and start building 
and pay a contractor until it is done. You go out and you have 
all your studies done, you get all your environmental impacts 
and historical reviews done. You make sure that everything 
about the project has been approved by those organizations that 
permit and have the other requirements.
    You then have the building approved by an architect or 
engineer that says, ``This is what design-to-build costs will 
be.'' That is phase one. The second phase, as we would see it, 
would be to actually make one payment at the beginning of the 
project, and we are done. That would alleviate a lot of the 
reimbursement oversight and the length it takes to sometimes 
close out public assistance. It is not quite to the point of 
being a cost estimate, but it would build a design phase to get 
the best accurate estimate, when it is sometimes difficult to 
do that across large, complex projects.
    We also looked to reduce the cost of administering how we 
do our business. When I got to FEMA, we rarely implemented 
something we called virtual joint field offices. We would 
oftentimes set up an office, bring in staff, have security, and 
all the other resources needed to run a joint field office to 
administer public assistance programs within the State. We have 
been very aggressively looking at how not to use those 
facilities when it is not warranted, in cooperation with the 
States. And by using virtual joint field offices where we don't 
establish a permanent presence, use our regional offices and 
structures, and are able to administer the public assistance 
program to the satisfactory requirements of the Government and 
the State, we can significantly reduce that overhead.
    We now look at our joint field offices and develop spend 
plans, which we hadn't done before, so we can actually see how 
much is it costing us to administer that disaster. These and 
other steps are ways that we are looking at how we can drive 
down the administrative cost of the programs, but at the same 
time looking at how we can streamline the process without the 
unintended consequences of fraud and waste that can result--and 
oftentimes has resulted--when shortcuts were taken without 
proper planning.
    Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Administrator Fugate.
    Mr. Jadacki, you may proceed.
    Mr. Jadacki. Good morning, Mr. Chairman, Ranking Member 
Norton, and members of the subcommittee. Thank you for the 
opportunity to discuss streamlining and cutting costs while 
improving preparedness and response capabilities at the Federal 
Emergency Management Agency.
    I would like to first acknowledge the great amount of work 
that has been done by FEMA in the past 5 years. My office has 
conducted a significant amount of work assessing FEMA's 
programs and policies, as well as conducting audits of disaster 
grants and subgrants. We have made important findings and 
recommendations in a number of areas, and I am pleased to say 
that FEMA is implementing many of our recommendations.
    With regard to streamlining, my testimony is focused on the 
Public Assistance Program just mentioned by Mr. Fugate here, 
and the disaster close-out process. I will also discuss several 
areas for potential cost savings, including debris removal and 
holding grantees and subgrantees accountable for ineligible and 
unsupported costs. And finally, I will touch on improving 
preparedness and response through tracking lessons learned and 
implementing corrective actions.
    Before I address these topics, I would like to take a 
moment to discuss the disaster relief fund, the increasing 
number of disaster declarations, and the Federal cost share for 
disasters.
    Recently, due to a number of ongoing disasters and a spate 
of declarations this year, the DRF was depleted to a point 
where only funding for immediate needs was authorized. Funding 
for long-term projects was put on hold. The disaster relief 
fund is not a bottomless pit. It needs periodic replenishments, 
either through the normal appropriations process, or through 
emergency supplemental legislation.
    One advantage of the DRF is that it is a no-year fund, 
meaning that unused DRF funding does not expire at the end of 
the year, as do most appropriations. Another benefit of no-year 
funding is that unused or unexpended funds identified through 
streamlining or cost-cutting efforts may be returned to the DRF 
for future expenditures. FEMA was able to extend the DRF 
through the end of the fiscal year by employing some of these 
measures.
    Two suggestions have been made by my office and others for 
reducing the Federal cost of disaster relief, including 
strengthening disaster declaration criteria to prevent marginal 
emergencies and disasters from being declared, and adjusting 
the cost share so that States are responsible for a larger 
portion of recovery funding.
    One of the reasons the number of disasters continues to 
increase is the way FEMA assesses whether to recommend to the 
President that a disaster be declared. FEMA relies on a 
combination of quantitative and qualitative factors when 
assessing a declaration request.
    But one of the quantitative factors is based on the per 
capita income in 1983, which was $12,583, and the other 
quantitative factor, the total amount of damage to the State, 
remains at the threshold set in 1999, which was $1 million. It 
is up to Congress and the President to decide what the 
threshold for disaster should be. But I would suggest you take 
the time to look at the criteria used to make the decision.
    It may also be time to reassess how much the Federal cost 
share should be under disaster declarations, and it is 
important that Congress reexamine the circumstances under which 
the Federal cost share should be raised above 75 percent. I am 
not saying that the cost share should never be increased. But 
when it is, there should be time limits. While cost share 
adjustments can be a great help to State and local governments 
when economies have been devastated, they reduce the 
supplemental nature of the Stafford Act funding. And when the 
States' cost share is reduced to zero, there is little 
incentive for State and local governments to save money, or to 
close out projects in a timely manner.
    At the request of this committee several years ago, we 
conducted an indepth review of the public assistance process. 
And we were asked by the committee to come up with 
recommendations and alternatives to help streamline the 
process. We issued a report about 2 years ago and I testified 
on that, and we made several recommendations to FEMA, but we 
also provided alternatives that Congress can look at to change 
or help the disaster assistance program.
    Within FEMA, we wanted to get some sort of standards or 
performance measures, as far as appeals and some of the other 
factors that were resulting in some of the delays of funding. 
We also recommended that FEMA develop tracking systems to kind 
of keep track of these types of things, that when something 
goes into the process it is not lost in the process, that 
things are able to be unraveled or resolved in a timely manner. 
FEMA has done that.
    But more importantly, we made some recommendations--and 
Craig alluded to these a couple minutes ago--that we think may 
or may not require congressional action. One is negotiating 
settlements. Right now, the process that we are using with the 
project worksheet works fine for smaller garden-variety types 
of disasters. It is great if you are going to rebuild City Hall 
where City Hall was before. That is fine.
    But in catastrophic types of events, we don't think that is 
the best way to do it. The use of the cost-estimating format 
might be one solution, where we get estimates upfront, where 
people agree to them, and then, instead of tracking every 
single actual cost, we come up with estimates of what the costs 
are going to be, and we agree to that and walk away. That would 
significantly reduce the administrative burden on both the 
Federal, the State, and local governments.
    It worked pretty well. There was a pilot study that was 
done a couple years ago on the debris removal pilot program, 
where estimates were used and the States were encouraged, and 
they received a higher incentive if they had a debris 
management plan in place. So we are looking at that.
    Finally, I just want to mention the lessons learned. One of 
the things--I think the most important thing--is what are we 
learning from disasters. I heard earlier about the fact that 
there were some problems in DC with the evacuation, and we are 
going to hear the person from OPM talk about that. But I think 
it is critical, as we go through these disasters, to ask what 
are the types of things that we did, how can we build on those 
types of things, and how can we look at some of the efforts 
that we have done, undertaken in the past, to help improve 
operations and streamline and cut costs. Thank you.
    Mr. Denham. Thank you. Thank you.
    Mr. Hunter, you may proceed.
    Mr. Hunter. Good morning, Chairman Denham, Ranking Member 
Norton, and members of the subcommittee. My name is Dean 
Hunter, and I am the deputy director for facilities, security, 
and contracting at the U.S. Office of Personnel Management. In 
that position I have primary responsibility for security and 
emergency actions at OPM. Thank you for allowing me the 
opportunity to appear before you today to discuss OPM's role in 
determining the operating status of the Federal Government in 
the National Capital region and, in particular, our actions 
concerning the earthquake of August 23, 2011.
    By law, individual Federal agencies possess the authority 
to manage their workforces, and to determine the appropriate 
response during emergencies, including natural disasters. 
However, in order to facilitate a consistent and coordinated 
approach on a regionwide basis, Federal, State, and local 
authorities have traditionally looked to OPM to determine the 
operating status of the Federal Government across the DC area.
    As emergencies arise, our standard protocols include 
participation on conference calls hosted by the Metropolitan 
Washington Council of Governments, COG, in order to develop 
situational awareness, facilitate the exchange of information, 
and coordinate communications and response efforts among 
Federal, State, and local agencies, and other stakeholders.
    Our principal priorities are to ensure the safety and 
security of the Federal workforce and the public, and to 
maintain the continuity of Government operations.
    The afternoon of August 23rd was an unprecedented no-notice 
event. At OPM headquarters almost immediately following the 
tremors, the fire alarm was pulled by one or more of our 
employees, triggering an evacuation. This evacuation began 
before we were fully able to determine the nature of the 
threat, and to make a judgment as to whether evacuation or 
sheltering in place for our facility was the appropriate course 
of action.
    Within minutes, however, we were able to confirm with the 
U.S. Geological Survey that a 5.8 magnitude earthquake had 
occurred. Our initial concerns were for the safety and security 
of our personnel, and we took immediate steps to conduct an 
orderly evacuation of our facility, while building engineers 
conducted a damage assessment.
    While our building evacuation was underway, we began 
attempts to gain situational awareness in order to make an 
informed decision on the operating status of the Federal 
Government across the region. Our concerns, centered on whether 
facilities were structurally safe to reoccupy, the length of 
time necessary to conduct damage assessments, the impact of 
potential aftershocks, and the effect of the earthquake on 
transportation capabilities throughout the region.
    Our efforts to obtain such awareness through our 
traditional protocols, however, were hampered by communication 
challenges. Cell phone, landline, and email service was 
sporadic, at best. We developed awareness by monitoring radio 
traffic over the Washington area warning alert system, which 
became a forum for status reports on damage assessments and 
transportation capabilities, including the operating status of 
bridges and roadways--Metro and Amtrak, among others.
    We were able to establish contact with the DC Homeland 
Security and Emergency Management Agency and GSA officials, and 
these contacts were vital in our efforts to gain awareness of 
regional capabilities, and obtain feedback on potential courses 
of action.
    OPM's announcement on the status of the Federal Government 
was broadcast at 3:47 p.m. Given the communication challenges 
noted, which prevented us from having a full understanding of 
local conditions, and after careful review, we concluded that 
it would not have been prudent for OPM to issue an announcement 
earlier. Further, this unique event called for special 
tailoring of the OPM standard messaging regarding early 
releases.
    The OPM announcement recognized that many Federal agencies 
had already made the determination to release their employees 
early, and further, recommended that individual agencies 
consider early dismissal, recognizing ongoing traffic and 
commuting conditions. Implicit in this message was the 
understanding that individual agencies were better positioned 
to make decisions on a building-by-building basis, giving the 
varied levels of damage anticipated, and ongoing structural 
assessments. We concluded that a blanket OPM regionwide 
determination was neither feasible nor appropriate.
    Prior to and since the earthquake, we have been working 
closely with our Federal, State, and local partners to amend 
the OPM decision framework to include a shelter in place 
option. Further, we are actively engaged with COG in an 
interagency effort to strengthen emergency management efforts 
throughout the region, with an eye towards enhancing 
communications capabilities in the future.
    Recognizing that getting the message into the hands of our 
Federal employees is paramount. We are maximizing the use of 
social media, including Twitter and Facebook, to reach 
personnel the fastest in an ongoing event. Further, we are 
strengthening our partnerships at the local level, including 
recent OPM participation in the District of Columbia's 
functional emergency management exercise on September 28th.
    Additionally, we have reached out to our internal OPM 
community through a town hall forum to reiterate that 
sheltering in place is almost always the best option to follow 
until a full picture of the circumstances at hand can be 
obtained.
    In conclusion, our initial assessment is that our efforts 
were appropriate. However, as with any major undertaking, a 
full review with all of our partners is necessary to analyze 
lessons learned, and to bridge critical gaps.
    Thank you for this opportunity. I am happy to address any 
questions you might have.
    Mr. Denham. Thank you. Mr. Fugate, section 404 of the 
Stafford Act allows FEMA to delegate administration of the 
hazard mitigation program to States. This could lower costs for 
FEMA and streamline the process. Florida has requested a 
delegation of authority. However, FEMA has yet to issue the 
criteria to approve State applications. When do you expect the 
criteria will be completed?
    Mr. Fugate. Mr. Chairman, usually when it comes to the 
State of Florida, I was recused. So I don't have that. I will 
have to get staff to respond back in writing. But one of the 
challenges that, as a State, we were trying to work through 
when I was there was to get the criteria to administer the 
program to the satisfactory requirement to ensure that the 
funds met the requirements of the program. That was a 
challenge.
    And so, I will have to have staff respond back. Because, in 
general, for the last 2 years I have recused myself under my 
ethics agreement for specifics. But I knew on the State side 
our challenge was trying to get the approval, based upon our 
history of administering Federal dollars, and some of the 
challenges we had had in previous events to satisfy FEMA that 
we could meet those requirements in administering the grant 
program.
    Mr. Denham. Well, I will look forward to getting that in 
writing.
    But on a national perspective, last month FEMA announced 
the disaster relief fund was close to running out of money, and 
then later somehow found $2 billion that was later identified. 
Can you explain what happened here, and where that money came 
from?
    Mr. Fugate. There was no $2 billion found in the last week, 
sir. That was $2 billion that had been placed back in the DRF 
over the course of the year. We were tracking, and had began 
providing appropriation staff updates in early August on the 
daily balances as we went through the process of looking at the 
potential to implement immediate needs funding.
    With the onset of Hurricane Irene, we made a decision to 
implement immediate needs funding, which stopped all funding 
for all permanent work, and would only fund emergency 
protective measures and individual assistance programs on all 
open disasters.
    As the fund continued to go down, we were still doing 
recoveries from older disasters. The two things that were the 
variables that are hard to predict is what is going to be the 
demand rate in States such as Pennsylvania, New York, New 
Jersey, and Vermont, as people begin registering for individual 
assistance. Based upon the early registration rates, and based 
upon how much we had been able to recover, and what we thought 
we could recover, we saw balances that would either approach 
zero and would result in inability to continue individual 
assistance, or drop so low that we would have to take 
additional action such as shutting down all the field offices 
that weren't tied to individual assistance.
    So, in those final weeks there wasn't a $2 billion 
recovery. That had been over the year. But we were still 
getting periodic recoveries, including a last one for about $70 
million, in the final week. Those allowed us to continue 
providing individual assistance. But again, it dropped the fund 
to such a low level that, in prompting the President's request 
for a supplemental, he was looking not only for the funds that 
we would need going into fiscal year 2012 to do the rebuilding 
from all these disasters, but to ensure that we had sufficient 
funds to close out the year, but also be prepared to respond to 
the next disaster.
    Mr. Denham. So you knew the funds were out there. This 
wasn't a surprise.
    Mr. Fugate. Sir, we cannot just arbitrarily take money away 
from States. We have to work with the States. These were 
recoveries that we were making from previously obligated funds 
to a State for projects where, if they had closed out that 
project and didn't tell us there was no further drawdowns, that 
they were allowing us to then recover those dollars back.
    That process was accelerated throughout most of August and 
September, to try to pull in as much as possible. In our budget 
spend plans, we project how much we were going to look at 
recovering each month. We were actually pulling against our 
fiscal year 2012 recoveries, trying to get more money from the 
future recoveries into this year.
    But it is not something that is so predictable that I can 
give you an accurate count of how many dollars will come in on 
each day. It is literally, as we free up and get the States to 
concur project-by-project, that we are able to recover the 
funds.
    Mr. Denham. I understand. It sounds somewhat political to 
me. Obviously----
    Mr. Fugate. Mr. Chairman, to be honest with you, I am about 
as apolitical as they get, and I was doing my job, trying to 
make sure we could continue our mission.
    Mr. Denham. I understand. And I can tell you from the CR 
perspective, that there were some things that were challenging 
at the time, and this was one of those areas that was used as a 
political hot potato.
    Mr. Fugate. Mr. Chairman, I was trying to do everything in 
my powers to make sure we did not have to stop individual 
assistance payments to people who, as you saw in that picture, 
were flooded out of their homes and needed rental assistance.
    I was prepared to have to look at being anti-deficient if a 
disaster happened. I did something I never thought I would be 
doing in this Government, which was writing shut-down plans for 
the DRF, and figuring out how we would respond to the next 
disaster without adequate funds.
    Mr. Denham. They expedited the $2 billion that was sitting 
out there that we were waiting to close from States. Did we 
not?
    Mr. Fugate. Sir, that $2 billion was not closed out in the 
final weeks. We have been recovering that at a rate at anywhere 
from 125 to 150, sometimes as high as $200 million a month, 
depending upon how we can close out open disasters. And these 
go back, as far back as hurricanes in the 2004, 2005 years that 
we have been recovering. That is over $4 billion that I am 
aware of, close to $7 billion in the last couple years that we 
have been recovering as part of our budget in the DRF that is 
actually part of our spend plans.
    Mr. Denham. And I understand. But doesn't that sound like 
an issue to you? ``Well, we are trying to raise money on a 
monthly basis, yet we are not recovering money over the last 
decade''?
    I mean we understand that there are emergencies out there 
that we need to close out that have sat for years and years. 
Could the system not be expedited? You obviously know where 
these funds are, and how much has been allocated to every 
State. Correct?
    Mr. Fugate. Yes, sir. And we also know that until they 
complete the projects--because we work a reimbursement, many 
States are reluctant to close out those costs until they have 
all their final bills in and have reconciled those costs.
    When I got here we had not been recovering a sufficient 
amount of monies. This is one of the areas that we have started 
in this administration, is to really look at how you recover 
and start closing out these disaster costs, and putting the 
money back in the DRF. You know, again, this was not something 
that we had seen a lot of when I got here. We have been putting 
a lot of effort in doing that.
    And again, the ones that we got that were the most 
straightforward were those that were mission assignments. FEMA 
had issues that the missions oftentimes for Federal agencies 
had been closed, but the balances had not been recovered. Last 
year that was over $2 billion we were able to close out from 
that. This year we are closing out State and local projects. It 
is a little bit more difficult, because it has to be when they 
agree that they should be closed for us to make the recoveries.
    Our next step will be going after those longer term 
payments, as the IG has been pointing out, that were improperly 
made, and begin those recoveries, and either looking at can 
they reimburse us, or whether we are going to refer those to 
Treasury.
    So, we have been doing our job to get the money back where 
we know it is at, as it can be released, and as we can verify 
it is no longer needed. But again, Mr. Chairman, this is 
something that we have been doing and working hard, and has 
been one of the reasons why the DRF has been able to do what it 
has been able to do in the last years, is those recoveries.
    Mr. Denham. Thank you. I am out of time. I would just 
finish by saying we absolutely want to make sure that we have 
enough funding for all of our emergencies and doing the proper 
amount of planning. But the goal of this committee, the goal of 
this hearing, is to make sure that, as we create efficiencies, 
that we not only are able to fund quickly, but that we are 
actually able to close them out just as quick, so that we can 
move on and have better planning.
    So, thank you for testimony. I now move to Ranking Member 
Norton for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. Mr. Chairman, the 
elephant in the room is the unprecedented earthquake that this 
region experienced in August. It is a perfect proxy for a 
terrorist attack, because it was unexpected. And it needs to be 
analyzed. It was as unexpected as it could be. It was 
unexpected as any terrorist attack could be. It was as 
unexpected as 9/11, and needs to be analyzed thoroughly.
    Mr. Hunter, I was--you drew curious conclusions at page 
four of your testimony. You say, ``Given the unique nature of 
the event, communication challenges, our own external''--sorry, 
``internal evaluation, and the need to develop a robust 
understanding of the transportation capabilities of the region 
before the decision was made.'' You cite those factors, and 
say, ``On the whole, our initial assessment is that our efforts 
were successful, in light of these factors.''
    Mr. Hunter, if there was an aftershock within the last--I 
don't know, it may have been 24 hours; it wasn't here, it was 
elsewhere in the region--had it been here, what site would a 
Federal employee go to, to learn information of any kind, even 
if you had not enough information to tell them what exactly had 
happened? What is that site?
    Mr. Hunter. Thank you, Congresswoman Norton. We have a 
variety of mechanisms that we reach out to the public and to 
Federal employees to provide that message. We have an OPM 
webpage which provides the status of the Federal Government, we 
have a call-in line that employees and the public can reach to 
determine the status----
    Ms. Norton. Yes, a lot of them tried to use a call-in line.
    Mr. Hunter, 10 years after 9/11, don't you think that there 
ought to be a site as familiar to Federal employees as 911 when 
it comes to learning what to do next, so that cell phones are 
not jammed, as they were? Don't you think that would be 
elementary at this point? You act as if the cell phones jammed 
and, wow, who could have foreseen that? Well, it seems to me 
that was entirely foreseeable.
    Mr. Hunter. Yes, ma'am. Recognizing that there were 
communications devices which were put in place post-9/11, we 
had anticipated that those would be successful in use, 
including our Government emergency telecommunication systems 
and wireless priority service. What we learned during the 
actual event is that they weren't as effective as we had hoped.
    OPM certainly is just a user of those equipment 
capabilities. And in after-action reports, as you had 
mentioned--and we will be working very proactively with those 
particular owners and other stakeholders to address how we 
might----
    Ms. Norton. Those owners? I am sorry, I don't even know who 
we are talking about. I am talking about OPM.
    Mr. Hunter. Sure.
    Ms. Norton. I am talking about the largest employer in the 
city and the region. And I am talking about--I don't know how 
many employees in this region, 200,000? But I am talking about 
whether or not--well, let me ask you directly.
    Mr. Hunter, will you go back to OPM and try to develop for 
OPM, for the Federal Government in this sector, a site that is 
easy to reach, is named in a way so that you don't have to 
memorize a lot to know where it is? Do you think that is an 
appropriate thing to do after the earthquake?
    Mr. Hunter. Yes, ma'am. We have been actively engaged with 
the Council of Governments, including representation at the 
Federal, State, and local level about talking about how we can 
improve----
    Ms. Norton. Let me just say this, Mr. Hunter. I wish you 
would not speak about the Federal, State, and local levels and 
the Council of Governments. As important as they are as 
coordinating mechanisms, the responsibility for informing 
Federal employees who are located here and in this region what 
to do next doesn't lie with any of the parties you have named, 
but with the Office of Personnel Management itself.
    So, whatever they tell you, the leadership, it seems to me, 
sir, is in OPM's court. And I would ask you to report within 30 
days what is the site that Federal employees can go to in time 
of emergency, so that they are not caught really red-handed, as 
they were, not knowing--literally, they literally didn't know 
what to do. Speak to any of them. Speak to people in their own 
agency. They had no idea what to do.
    Did FEMA and OPM coordinate before this particular 
disaster? For example, have the Federal agencies prepared the 
disaster plans required of each agency?
    Mr. Hunter. I can tell you, ma'am, that we coordinate 
regularly with FEMA's Office of National Capital Region 
Coordination. They are actively involved in, as we update our 
DC dismissal guide every year, we have an opportunity to meet 
with them and network, allow them to provide----
    Ms. Norton. Have the Federal agencies prepared--in 2008--
let me be specific--the national response framework required 
each Federal agency to plan for its role in a coordinated 
Federal response to an emergency. I want to ask. Have the 
Federal agencies met this requirement, and has OPM integrated 
such plans, if they exist?
    Mr. Denham. And, Mr. Hunter, I would ask you to be brief.
    Mr. Hunter. Yes. I would have to defer that question to 
FEMA, actually, as they oversee the national response plan.
    Ms. Norton. That is curious.
    Mr. Denham. And we will have a second round on this panel--
--
    Ms. Norton. Yes, but do you know if their plan----
    Mr. Fugate. Very quickly, the response plans to being able 
to carry out our functions, yes. As OPM is pointing out, the 
difficulty, what happens when you have a shut-down of your 
agencies and an agency having to make a decision about 
implementing their continuity of operation plans, as well as 
continue their emergency functions.
    Those are out there, and we are in the process of 
implementing ours, based upon the earthquake's original 
impacts, and then we are able to go back and resume our 
operations, once we determined this was not a catastrophic 
impact, and we would be working through the States and local 
governments, what the resource request would be.
    Mr. Denham. Thank you. The chair now recognizes Mr. 
Crawford for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman. I have a question 
for Mr. Jadacki.
    You mentioned disaster close-outs is an area of concern. 
The longer it takes to close out a disaster, the higher the 
cost to the taxpayer. Can you elaborate on how disaster close-
out times impact costs, and what solutions you might offer to 
correct the problem?
    Mr. Jadacki. Yes, this has been a problem for a number of 
years, and we have actually done several reviews on it. As of 
September, there were about 400 open disasters. And we have 
over 80 declarations this year. They just keep piling on.
    So, keeping an open disaster, there is an administrative 
cost involved in that. But in a lot of cases, it is really up 
to the States to complete the work. And that is a problem, 
giving States the incentives to close out the disasters. Once 
the disasters close out there are no opportunities for 
additional funding.
    And the States are impacted by multiple disasters that sort 
of add on to that. So if you have States with several 
disasters, closing one disaster or giving one disaster a 
priority is issue.
    But keeping them open, going back to the field offices, you 
know, the cost of maintaining those disasters, there is funding 
out there that has to be reconciled, and possibly funding that 
can be de-obligated, projects that were approved for a certain 
amount that came in under that. There are opportunities for 
that. But the longer you wait to review those and close those 
out and get them reconciled, the longer it takes to get the 
funding back into the disaster relief fund.
    We have disasters open going back to 1994. The Northridge 
earthquake is still open--1994. There are a number of disasters 
that are more than 8 years old. I think there are over 30 or 40 
disasters open over 8 years old. So the longer it takes to see 
what the actual costs are, to identify what funding isn't 
needed, plus the cost of administrating these things, just 
keeps adding on to the amount of the disaster.
    Mr. Crawford. Is it possible you might implement--and once 
a disaster is declared, is there a window or a protocol that is 
prescribed period that, you know, States or other 
municipalities, localities, county governments, whatever, is 
there a window of opportunity there that you might prescribe, 
once a disaster is declared?
    Mr. Jadacki. Yes, according to the FEMA regulations it is 
48 months after the disaster is declared that the project 
should be closed out. What happens is that some of the longer 
term, more complex public assistance projects take longer to do 
that. And also, on the back end, the hazard mitigation grant 
program is traditionally sort of on the back end, too. And 
those projects tend to take a back seat, and they also extend 
the life of the projects.
    Some of the smaller garden-variety disasters--yes, you can 
close them out pretty quick. But some of the more complex 
ones--earthquakes, for example, may have hidden damages that do 
not become apparent until the work is actually done. They 
extend the life of those, too.
    There are regulations out there that do impose time limits, 
but they are often exceeded.
    Mr. Crawford. Any suggestions on how you might address that 
in the future? Under the current budget constraints, would that 
not be a priority issue?
    Mr. Jadacki. You know--and as Mr. Fugate mentioned--the 
funding is on a reimbursable basis. So we are really at the 
mercy of the States, depending on when they complete the 
project and get reimbursed. I think something that should be 
considered by Congress--and I think FEMA is considering right 
now--is actually using estimates, much like you would settle an 
insurance claim. You go out there and you agree on what the 
damage is. But, the insurance company is not going to sit there 
and make sure every nail is put in the right place, and all 
that stuff. They are going to give the insured a check, and 
they are going to rely on that.
    What FEMA does is based on reimbursement, getting actual 
costs back. They are scrutinizing those costs. And it just 
delays, and the oversight and administrative costs are just 
enormous. So I would think some sort of an estimate, maybe 
under the CEF, the cost estimating format, that was actually in 
legislation--the Disaster Mitigation Act of 2000--would be a 
good alternative, or some variation thereof, using estimates.
    Mr. Crawford. OK, thank you. Yield back.
    Mr. Denham. Thank you. Ms. Norton?
    Ms. Norton. Could I ask you, Mr. Hunter, to--when you 
return to OPM, to work on the notion of phased dismissal during 
a disaster? Of course I am sure lots of private employers 
didn't know what to do either, and perhaps let their employees 
go.
    From all appearances, it looks as if each agency decided 
when dismissal would occur. Is that the case?
    Mr. Hunter. Yes, as an initial point of clarification, yes. 
They would have made that initial decision. Each agency has an 
occupant emergency plan which would address their protocols for 
shelter in place and evacuation.
    Ms. Norton. As much--as important as it is to defer to the 
differences among the agencies, the fact is that the blame goes 
almost entirely to OPM and the Federal Government for 
overwhelming the Metro system. That is the one place where we 
could have thought in advance--and advance means we had 10 
years to think about this--because the same thing has happened 
every time there has been a disaster of one kind or the other. 
You can understand it with 9/11, then we had the man--the 
tractor man. Same thing happened there. And it keeps happening.
    As long as each individual agency can decide this question, 
then we don't have a Federal Government, and we don't have a 
Federal Government plan.
    And it is totally unfair to Metro to say, ``Just buck up 
and do what you can,'' and it is unfair to Federal and private 
employers--employees, to have this rush to Metro to overwhelm 
Metro, which could cause another disaster, especially since 
there was, after all, an earthquake, something we had not 
experienced before.
    So, could I ask you, Mr. Hunter, to also submit to the 
chairman within 30 days an outline--at least an outline of a 
plan for phased dismissal in the District of Columbia, where 
you have more Federal employees, I believe, than you have in 
any single location in the region?
    I am interested in a process we spent a lot of time working 
on in past years. And what came out of it, I think, was the 
FEMA appeals arbitration panel, because we were vexed by 
impasses. And, in fact, I recall that there was more than $1 
billion on the table after Katrina in the Gulf, simply because 
of impasse.
    So, the first thing I want to know is: Do we now have a 
system where, instead of the Federal Government--that is to 
say, FEMA--having an expert and then the local jurisdiction 
having an expert, that, in fact, both sides agree on an expert, 
so that you don't set up an adversarial process on costs from 
the get-go without any requirement in the statute to do it that 
way?
    Mr. Fugate. Ranking Member Norton, the arbitration panels, 
as you pointed out, was limited to certain disasters. But one 
of the things that came out of that in the hearings and we did 
the after-action on is where we have licensed engineers who are 
certifying projects going up and testifying against FEMA 
project managers that are not licensed engineers, we lost every 
time.
    And it was the simple recognition that if the jurisdiction 
or the State does have an individual of record who is willing 
to attest their professional license to the accuracy of the 
information, we will accept that, and not try to challenge 
that, unless we think there is something abnormal about what is 
being recommended.
    But in many cases, the cost estimates--when an engineer 
certifies that a building is not repairable, we are not going 
to look to challenge that, if that engineer certifies it and 
attests to it. So one of the things we did do is----
    Ms. Norton. So I understand now. Instead of--understand 
what we had before. The Federal Government actually paid for 
the State's expert, and the Federal Government paid for its own 
expert. We don't have that now. You recognize a single expert, 
both sides agree, and you go with that?
    Mr. Fugate. In most cases, unless we think there is 
something that is very unusual. And usually we will consult 
with the IG and other folks if we think there is a concern 
there.
    But what we did do was go back to the basic principle that 
if you have an engineer of record, a licensed engineer, 
professional engineer who is going to attest, they have 
professional ethics and standards to make those certifications. 
We should be looking at those as the highest caliber of 
results, and we should use that in basing our decisions, versus 
merely disputing that and not having that similar level of 
expert and professional guidance.
    So, again, in most cases, yes. You got a professional 
engineer that says the building is destroyed, I am going to 
accept that, unless there is something really out of left 
field. But in general, we find that if you are going to do 
that, that is acceptable to us.
    Mr. Denham. Thank you. Mr. Barletta?
    Mr. Barletta. Thank you, Mr. Chairman. If I could pick up 
on Mr. Denham's comments, the CR debate here in Washington 
actually came right during the middle of this event. And we 
were told here that if we didn't pass the CR, that FEMA was 
going to run out of money by September 25th. And I remember 
going home that weekend wondering what I was going to tell 
these people, how we would allow this to happen here in 
Washington.
    And I don't know where the miscommunications came, but 
nobody is going to convince me that somewhere politics wasn't 
being played here. And the people back in my district were the 
football.
    So, I am not pointing a finger at anyone, but wherever it 
happened here in Washington, I hope it never happens again, 
because I would recommend those that are playing that game go 
to the areas like this and tell these people that, you know, we 
are using this to try to pit one side against the other. And I 
didn't appreciate it, and I don't know where it happened, but 
it should never happen again.
    Some of the people that were flooded out here, again, were 
actually flooded out in 2006, and they signed papers to be 
bought out, and they still haven't received any of the money. 
And as they were cleaning their homes out, again, they told me 
that they are not even going to contact FEMA, because they are 
afraid that if they get another check from FEMA, you know, they 
will have to give it back, they will spend it and they won't 
have it again.
    And I am just wondering why it would take so long for folks 
from 2006--and here we are, 2011 and another flood--why they 
haven't received their buyout.
    Mr. Fugate. I would have to go back and look at those 
specifically. I know, from my experience in Florida, doing 
buyouts are a challenge. Generally it is a cost share. We do 75 
percent. It requires that the State and local governments 
prioritize the funds for that.
    The 25 percent match is oftentimes a huge challenge for the 
individuals. Plus, there is other things that oftentimes factor 
in. There are going to be deed restrictions on a buyout that 
would prohibit any construction back in those areas, or any 
development back in those areas. So, from the standpoint of 
trying to get the match, trying to get through all the hurdles 
to actually do the buyout, and then do the buyout and 
demolition, is a complex process.
    What happened from 2006 forward, I am really going to have 
to go back and ask staff to respond back in writing. I just 
know my experience is it is a challenge.
    The other point you made about the mitigation dollars 
following after, part of that is based upon--hazard mitigation 
dollars are based upon the percentage of the assistance 
provided. And it is usually at 6 months that we get our first 
initial lock-ins that will tell us the approximate amount.
    But both in Pennsylvania, New Jersey, and other States, we 
have recognized the value of early buyouts. If we can get 
direction from the State, that will be the priority for their 
dollars. And if we have some inkling what those dollars look 
like, is begin that process in concert with the repair and 
clean-up.
    And again, it is a very challenging--but I think one of the 
huge hurdles that we run into oftentimes is the cost-share 
requirements or the 25 percent match, is the Government going 
to make that, is it going to come from the homeowner 
themselves?
    And then the other issue that also gets to be time-
consuming is fair market value, and trying to determine that as 
we do the buyouts.
    Mr. Barletta. You know, I was in a community, Makenagua. 
And as I was standing there, they took me out to a telephone 
pole and showed me--the Susquehanna is one of the most flooded 
rivers in America--they showed me all the marks on the 
telephone pole for all the various floods. And we were hit 
twice, as you know. Tropical Storm Lee followed, so we were hit 
twice. And this actually was 2 feet higher than Hurricane 
Agnes.
    But it was just remarkable, how many pieces of--how much 
paint was on this telephone pole from how many floods. They 
might have had five, six, seven significant floods in this 
little community. At what point does it make sense that we come 
in and just move these people out? Isn't it more costly over 
time to come in and constantly--because it is going to be 
flooded again.
    Mr. Fugate. Absolutely. I think that if you look at some of 
the floods this year, we have actually had floods of record 
across this country, including what we saw in Pennsylvania, 
where it exceeded Agnes. Those floodings would have been much 
worse, had not previous buyouts occurred.
    And so, I think that, again, these are decisions local 
leaders and homeowners make. It is not something that we 
necessarily want to force. But I think where--we can provide 
the financial incentive and streamline the programs. As the IG 
will point out, I am--I agree. Any time we go to 100 percent 
there is all kinds of issues unintended. But I think if you are 
going to adjust cost share up, it should be those things that 
do long-term savings, versus just the traditional repair and 
rebuild.
    So, mitigation programs, buyout programs, if you wanted to 
look at cost-share adjustments, where you could remove a hazard 
permanently from the U.S. taxpayer exposure, those would be 
areas where I would look to either reduce the requirements, or 
to increase cost share to more successfully complete those.
    But it does have economic impacts, because you are going to 
lose tax base. These have to be permanent changes. We just 
don't buy out and let them rebuild 5 years later, when memories 
fade. And in many cases, there is also the emotional issue of 
people who grew up in these homes having to make the decision 
to sell and move out and see their neighborhood go away.
    Mr. Barletta. Thank you. I yield back, Mr. Chairman.
    Mr. Denham. Thank you. Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman. Mr. Hunter, after the 
earthquake, I issued a release and my staff made phone calls in 
which I asked for a post-disaster meeting involving FEMA and 
the Department of Homeland Security with the Homeland Security 
regional directors. The purpose, of course, would be to do a 
post-disaster evaluation with everybody at the table.
    My staff could not get an answer, except it looked like 
some kind of meeting had been held, but it didn't look like it 
was the kind of meeting that could be called a serious attempt 
to do a post-disaster evaluation. Could you or Mr. Fugate 
indicate to me at this time whether any such meeting has been 
held in this region with Homeland Security chiefs from the 
region to evaluate what happened and what to do next?
    Mr. Hunter. Congresswoman Norton, I can tell you that, 
prior to the earthquakes, we were actively involved with FEMA 
and----
    Ms. Norton. And, Mr. Hunter, please answer my question.
    Mr. Hunter. Yes----
    Ms. Norton. I want a--I want to know whether there has been 
a post-earthquake meeting to analyze the response of all 
concerned, not just the Federal Government, following the 
earthquake. Not what happened before. Please respond to my 
specific question.
    Mr. Hunter. Yes, ma'am. There has not been a meeting 
specifically arranged that I have been present for, for OPM to 
focus solely on that issue.
    We have been engaged in a committee which was in place 
prior to the earthquake, looking at our responses to snow 
events and how we could improve that. That standing working 
group, which included representation from FEMA, has continued 
to look at the earthquake and how that adds an additional 
flavor. And so we have been examining those efforts as a part 
of that continuing working group.
    Ms. Norton. What has that working group--has it done a 
serious--first of all, does it include people from the region, 
or is it simply people from your staff?
    Mr. Hunter. It does. It includes, again, the Federal, 
State, and local----
    Ms. Norton. And you think it could do a post-disaster--
serious post-disaster analysis?
    Mr. Hunter. I think we could always use more eyes in 
looking at the issue and make sure that we are moving forward 
correctly----
    Ms. Norton. I am not talking about eyes or ears. I just 
want to know--perhaps Mr. Fugate can help me.
    Of course Mr. Hunter says he thinks they were quite 
successful. I think if you talk to Metro or to the average 
Federal employee, they just thank heavens that it wasn't more 
serious, especially considering that it was an earthquake. But 
they will tell you about all kinds of communication flaws and 
inability to get information, and the rest.
    I don't understand how the Federal Government, which is in 
charge of homeland security for the entire Nation wouldn't be a 
leader in sitting down, since it had a kind of case in point 
from which to work, that would help the Federal Government and 
then help it with other disasters.
    Rather than continue this line of questioning, could I ask 
Mr. Hunter and Mr. Fugate to get together and decide what is 
the appropriate way to do, as formal as you believe necessary, 
a post-earthquake analysis of what happened and what could be 
improved? Would both of you commit to doing that?
    Mr. Fugate. Yes, ma'am.
    Mr. Hunter. Yes, ma'am.
    Ms. Norton. Thank you very much. Now, my prior question 
about a single expert and about the appeals arbitration really 
comes down to how--to my aversion to, lawyer though I am, to 
adversarial processes where people can just sit down and reach 
an agreement, save money, and save time.
    So, I am interested in--I believe it is the inspector 
general who issued a report recommending that FEMA establish a 
mediation or arbitration process for appeals that have reached 
an impasse. Now, the one I spoke about was if the impasse 
involved a great deal of money. I want to know what happened to 
that.
    But Mr. Jadacki, were you referring to, in the normal 
course of business, the use of a mediation or arbitration 
process to just move along and get the issue resolved? And what 
kinds of circumstances did you have in mind?
    Mr. Jadacki. What we find is that second appeals, the 
appeals that go to FEMA headquarters, are the most problematic. 
They can appeal first, the grantee or subgrantee, to the FEMA 
region. FEMA can deny it or accept it. And if there is a second 
appeal, it would go to headquarters. That is where we found a 
lot of appeals that kind of got lost into the--you know, 
somewhere out there. Some of the appeals lasted years to get 
resolved.
    What we were recommending is that there is a tracking 
system, so that the Feds, the States, and the locals know every 
step of the process, where their appeals are, and what some of 
the concerns are, versus going into this abyss and not knowing 
about it.
    FEMA has developed a tracking system, and I understand that 
the number of appeals--the number of days that appeals are 
outstanding has been reduced significantly. But it needs to be 
transparent, too. So, as far as a formal mediation board, we 
know it is out there for an arbitration panel. But we made 
recommendations that FEMA track these things and make them more 
transparent so that folks know what the delays are, why the 
cause in delays, who is responsible for the delays, and where 
they stand in getting these appeals resolved.
    Mr. Denham. Thank you. Mr. Fleischmann?
    Mr. Fleischmann. Thank you, Mr. Chairman. Administrator 
Fugate, I wanted to say thank you, first and foremost. I 
represent the Third District of Tennessee, Chattanooga, Bradley 
County. Earlier this year, that area was ravaged with 
tornadoes. It was destruction the like I had never seen in my 
life. I viewed it from the air, I was on the ground. Your 
office--and you were kind enough to meet with me in Washington, 
DC--and the work that FEMA did on the ground was outstanding. 
It was quick, very responsive. And so, on behalf of my 
constituents, thank you very much. I am a freshman congressman, 
and I was very, very new to office when that hit. So, first and 
foremost, thank you, sir.
    I just have one question. It is my understanding that last 
Congress and at previous hearings you noted that FEMA's 
policies and regulations--and, in effect, that perhaps they 
could be streamlined somewhat. Where are you in that process 
right now, sir, and when can we possibly see some of the 
results from those reviews, sir?
    Mr. Fugate. Thank you, sir. And again, I will pass on to 
the team. It is a good partnership with the local officials 
there in the State of Tennessee, and that makes our job easier.
    As I stated earlier, we have been working on a bottom-up 
review. But I think a couple things. First of all, we did some 
things, not in your State, but in some of the areas where 
tornadoes hit, where we saw a big challenge with debris. And 
the debris was going to impact our ability to get people back 
in their homes quickly. This is in Tuscaloosa, and there were 
other areas hit with the tornadoes--and again, in Joplin.
    Without any changes to the Stafford Act, without any 
changes in regulations, we were able to go in there and 
expedite debris removal and move debris faster and in greater 
quantities. We are currently looking at that to see how that 
went. But it was a process which--the goal wasn't necessarily 
get the debris picked up, it was to get housing back quickly.
    But we are also looking at--and I think this comes back to 
the chairman and the ranking member's concern--when we get into 
big projects, and as the IG points out, there are so many 
issues in a reimbursement process that can hang you up and 
literally spend years rebuilding, that we want to break big 
projects into two phases: design phase, where, as the ranking 
member and the chairman points out, let's get all the answers 
done, we know what it is going to cost us, we get that final 
estimate, we are not going to have the true accounting cost, 
but the cost of administering that will be far less than going 
ahead with that estimate; and then have an engineer or 
architect say, ``It is going to cost us this much to go build 
this fire station, we are done, go build a fire station, we are 
out of it.''
    So, these are the things we are looking at as, again, not 
necessarily do we have to have changes in the Stafford Act--
and, oftentimes, not even in the CFR--but what are our policies 
and procedures that are impediments. And then, what do we have 
that would be statutory that we would come back to Congress and 
going, ``We think this may be a better idea, but we are going 
to need Congress to give us guidance that may require a 
legislative change.''
    But again, we look at costs. How do we speed up the 
process, while minimizing waste, accountability, and fraud. But 
our history tells us that the current process is costing us far 
more than it should. And if we are going to make savings, 
rather than putting the savings on the back of the survivors in 
the communities that are trying to get assistance, we have got 
to reduce our cost of administering those dollars.
    Mr. Fleischmann. Thank you, sir. And I wish you all of the 
best in your endeavors.
    I yield back, Mr. Chairman.
    Mr. Denham. Thank you. Mr. Carnahan?
    Mr. Carnahan. Thank you, Mr. Chairman and Ranking Member 
Norton, and to our panel here today.
    I wanted to touch on a number of things. Being from the 
State of Missouri, where we have had our fair share--probably 
more than our fair share--of natural disasters recently, our 
friends in Joplin being first among those, but there has been a 
dramatic increase in the number of disasters declared in my 
area and across the country.
    Do you feel that the criteria have been changed, or have 
there just been a greater number of large-scale disasters? And 
if there are more disasters, to what do we owe this change? Or 
is this just unpredictable weather patterns? How is that for a 
wide-open question, Mr. Fugate?
    Mr. Fugate. Well, one of the things I have asked the IG to 
build into their work plan is to look at our declarations, and 
are we following our criteria. Again, some of it is based upon 
numerical factors. Some of it is subjective, particularly with 
individual assistance.
    I have asked and looked at our own percentages of what are 
we doing, as far as approvals and denials, because I think the 
total number of events is actually driven by how much weather 
and how many extreme events we have had. So I went back and 
looked at, well, what is our percentage of approvals versus 
denials, and how does that look against the average?
    And we are seeing it is within the range. It is a little 
bit higher, but we have had other years that were higher, as 
far as approval rates versus denials. But it is not something 
that stands out so much to say as we suddenly changed 
everything in the last couple of years.
    What we do know is we look at events over $500 million as 
being catastrophic. We have already had three of those this 
year. That is on pace to be a record.
    So again, Governors are making these requests, based upon 
their impacts. I am sure there is a lot of factors that go into 
driving those. But when you look at the number of extreme 
weather events that have been driving, principally, all of 
these disasters, whether it is droughts that are producing 
wildfires across the southwest and in Texas, heavy rain--
record, you know, in your State, where you were hit multiple 
times. I am pretty sure Governor Nixon was making those 
requests based upon he felt that those costs and impacts 
justified that request.
    Mr. Carnahan. Mr. Jadacki?
    Mr. Jadacki. Mr. Fugate asked us a couple months ago to 
look at the growing number of disasters. I think we had more 
than 80 declarations so far this year, which is a record. The 
normal was around 40 to 60, so the number has been growing.
    One of the things we are looking at is the declaration 
process itself, what are the factors that go into that. Some of 
it is qualitative, some is quantitative, some is very 
subjective.
    One of the early things we found--and, actually, GAO did a 
study about 10 years ago--was some of the economic numbers that 
were used, the per capita factors were outdated. Our results 
indicate that they could be outdated, so we are looking at 
that.
    What we also want to do is look at the PDA process, 
preliminary damage assessment process, to see how close they 
are several months later, maybe a year or two later, to the 
actual disaster cost. That has been a little bit more 
difficult, but there may be problems in the preliminary damage 
assessment, where those initial numbers come from, that are 
used as a basis for their recommendation.
    So, we should begin a report in the next several months, 
and we are going to look at that. And if there is a problem 
with estimating the damages upfront, does it take in all the 
factors. Those are the types of things we will be looking at.
    Mr. Carnahan. We certainly would like to see that report, 
and hopefully that is instructive for all of us. But thank you. 
And Mr. Hunter?
    Mr. Hunter. From the OPM perspective, we did experience a 
year with many more decisions concerning the operating status 
of the Federal Government than we had seen in prior years. I 
believe we had 19 actual events where we made a decision 
concerning the release or a change in the status of the Federal 
Government. And, from our perspective, we will continue to be 
actively involved as a decisionmaker in these events.
    Mr. Carnahan. The other question I wanted to ask was, given 
the--you know, this sort of post--you know, this looking back, 
in terms of lessons learned, I wanted to specifically ask how 
does FEMA internalize these lessons learned, in terms of 
communicating those to staff, in terms of communicating that to 
first responders, to community leaders, to citizens. I mean 
that is--we all try to learn from these and how we can do them 
better, how can we prepare better.
    But talk to me about the process of how we are getting that 
out.
    Mr. Fugate. Well, it is done through several things. One is 
the after-action review process. But we actually find that 
sometimes the formal process takes longer than we like. So we 
oftentimes will do quick looks and make immediate adjustments, 
based upon that.
    So we both internally look at that, but we also work with 
our partners. And I will have staff prepare for you the formal 
process and what we do.
    But as an example, in the last go-around with the 
hurricanes, we ended up deploying more of our Incident 
Management Assistance Teams than we normally do. We came back, 
there were some lessons learned. So, rather than wait for a 
formal written process, we brought all those teams together, 
ran them through an exercise and evaluation, but also building 
upon the lessons learned and the response. We did that within 
about 4 weeks of the hurricane. So we have a formal process, 
but we also see something we want to address immediately, and 
we are doing that.
    And go back to one thing about earthquakes. Quite honestly, 
if you went to most State and local Web sites in this area, you 
couldn't find one word about earthquakes. Pretty much now, they 
all tell you the same thing: You don't evacuate, you get under 
something heavy, like a desk like this one, and you stay there 
through the shaking and then you leave. That is something 
everybody in California knows, but here on the East Coast it 
was a lesson learned. Many people didn't realize the East Coast 
may also have earthquakes.
    Mr. Carnahan. And one last question, if I may, Mr. 
Chairman. We heard news reports after the earthquake in 
Washington about what animals at the zoo were doing. You know, 
10 or 15 minutes before the earthquake. And our best scientists 
don't appear to be able to predict when earthquakes are coming.
    But is there something that the--by observation of 
animals--and I asked this of our zoo director back home in St. 
Louis, but has there been any conversation about that? It is a 
little out of the scientific mainstream, perhaps, but is there 
something there worth looking at?
    Mr. Fugate. I am going to defer that to the U.S. Geological 
Survey.
    Mr. Carnahan. I thought you might try to answer that one.
    Mr. Fugate. You know, again, I was tempted to put a webcam 
out there, just so we would know next time. But the reality is 
I think there is a lot of information comes out--and again, we 
defer back to the USGS as our science and experts when it comes 
to earthquake prediction science and where that is at, as a 
viable warning tool, sir.
    Mr. Carnahan. And the--maybe on the higher-tech-level 
question, I did a tour recently of the GSA facility in St. 
Louis. They were showing us some of the technology they have, 
in terms of going beyond some of the disaster preparedness 
books they have done in the past, to really getting this down 
to PDAs and handheld devices in much faster real time. Is that 
technology getting out there in ways needed? Is there anything 
else we need to be doing?
    Mr. Fugate. Just the short answer is I think with portable 
devices, tablets, and the ability to now reduce down binders 
into short pieces of information that you can access readily, 
we are moving rapidly from webpages and binders.
    I think we recognize at FEMA that our information has to be 
mobile, it has to be streamed and adapted to mobile devices. 
Tablets offer new opportunities. But again, we are finding that 
the traditional ways of getting information out in an 
increasingly mobile society hit a wall.
    One of the advantages of having downloaded information, if 
the wireless or, in this case cellular, is overloaded, you 
still have the information on your device. So even FEMA is 
getting into the app business. We have one for android, we are 
working on one for iPhone, where the information is already on 
your phone, you don't have to download it. But it would give 
you critical information in an emergency on the first steps you 
would take.
    Mr. Carnahan. Great. Thank you. I yield back.
    Mr. Denham. Thank you. Mr. Fugate, in September 2009 
numerous Federal agencies signed an MOU by which they committed 
to work in partnership with the State of California and 
stakeholders to address water challenges within the Sacramento 
and San Joachim delta. These challenges include disaster 
response due to impacts and earthquakes, flooding, 
environmental problems, water supply, and coordinated 
activities with California agencies. Do you know what FEMA's 
current role is in that?
    Mr. Fugate. Specifically, Mr. Chairman, no. I can get that 
back in writing. And I will ask Nancy Ward, who is our regional 
administrator who is based in Oakland, to provide a written 
update, and we will get that to you. But we--particularly in 
the issue with the levee systems and the potential for massive 
flooding in an earthquake, that is something I know that region 
nine has been working with the State on.
    Mr. Denham. Thank you. I look forward to a response in 
that.
    And just in closing, I just want to address one last issue. 
Mr. Jadacki, you had talked about the Mitigation Act of 2000, 
if that were implemented today.
    I have the same question for each of you. We have 400 open 
disasters currently. And 10 percent of that are over a decade 
old. If we had this act in place today, would we not be 
estimating the costs, paying them out almost immediately, and 
then having a real number that we can actually deal with in the 
budget on FEMA?
    Mr. Jadacki. Yes, I think--and Mr. Fugate alluded to this, 
too--the way it works right now, with the reimbursable basis on 
an actual cost basis, it is just a prolonged, complex process. 
If we come to an agreement upfront with a certified engineer, 
somebody who meets the criteria, has no conflicts, and agree on 
a price upfront that we are going to estimate and will agree 
on, I think that would greatly expedite the projects 
themselves, and also reduce the administrative burden.
    So, I think the cost estimating format is probably 
something that we should consider. You know, 5 or 10 years down 
the line, if we are still doing project worksheets, there is 
something wrong with that process.
    I will tell you one of the drawbacks--and we did some work 
on this--that concerns some of the grantees and subgrantees, is 
that if the project amount comes in over the agreed amount, 
then there is a burden on the grantee, too. They are concerned 
about that. And I know, doing some work in the debris removal 
pilot program, that was one of the concerns with the agreement 
amount. If it comes in over, they have to make up the burden of 
the those additional costs.
    Mr. Denham. Thank you. Mr. Fugate, if that mitigation act 
was in place today, would that not streamline the process?
    Mr. Fugate. Probably about 80, 90 percent, but it won't be 
100 percent.
    Here are some of the challenges you are going to run into. 
What if the grantee is in a dispute and a lawsuit that goes to 
their State supreme court over insurance payments, since we 
cannot duplicate benefits?
    The other issue, as the IG points out, is in some of the 
design-to-build criteria we are looking at, where we provide 
the initial funds to go through all of the review, design, and 
build, what happens after we finalize, and the applicant now 
finds that there were hidden flaws or other things that were 
not apparent until construction began.
    The only way this works is if you limit the bites of the 
apple. And the problem is, if you provide appeal processes, we 
are right back where we started from in that nobody is going to 
want to close something until they are ensured that their costs 
are met.
    So, I think this is the challenge. If we are trying to do 
nonduplication of benefits, or we are trying to maintain such a 
small margin of error, there will be a longer process. If we 
are willing to accept greater risk--and I think most of the 
applicants I have talked to want that risk to be on the Federal 
side--they would much rather us pay them more than what it is 
going to cost them, than us pay them less than what it would 
cost.
    But it would reduce--and I think this is a tradeoff--our 
administrative costs at some point get so high that it may be 
more acceptable to take greater risk and not have the degree of 
precision we get by reimbursing on the actual cost, because it 
saves us administratively. But then you are going to have the 
other side of the equation. Is this waste? Are we paying too 
much?
    And so again, I have been on the other side, where in 
Hurricane Andrew one of our hold-ups was on a lawsuit with the 
insurance companies that went to the Florida supreme court. 
And, as you know, when you get there, that is years, if not 
decades, sometimes, to get answers. But we could not move 
forward on a project until we knew what the insurance coverage 
would be, because of nonduplication of benefits, before you 
could finish that project.
    So I think 85, 90 percent, even higher, yes. But they are 
going to be outliers that are going to be very complex. But it 
would definitely get a lot of this down to a more manageable 
number.
    Mr. Denham. So if you believe that it will streamline the 
process, knowing that there will be still be some challenges--
85, 90 percent, I am willing to take that--it is the Mitigation 
Act of 2000 or 2011, going into 2012. If it is an improvement 
of the process, why has it taken over a decade to implement?
    Mr. Fugate. Well, my 2\1/2\ years have basically been a 
startup of trying to get there. And I think what we have come 
to, instead of--I think one of the concerns was trying to do it 
all at one time. And I think what we have come back with, which 
is, I think, a more adequate way to do it, is fund the design 
phase, give them the initial project worksheet on a complex 
project, like a charity hospital, and go, ``Let's do a design 
phase. Let's get all the issues out front, let's get all the 
costs out front, let's get all the damage estimates out front, 
let's do all the permitting, everything, including now, a 
design that we have agree upon, and a cost estimate.''
    And then, provide them the second amount, which is that 
amount, and we are done. No more reimbursements. We don't wait 
until the project is built, we don't do any more inspections. 
We do the single audit act on those Government entities that 
get the funds.
    But once we do the design phase, which I think is where all 
the details have to be worked out, once we get to the 
construction phase, and they say, ``Here is our estimated 
cost,'' an architect/engineering firm has signed off, ``This is 
what it is going to cost to build this building,'' then we 
issue them a grant for that amount, and we are done.
    Now, the question will be what steps--and this is--again, 
we are getting this out--we are starting to share this with our 
States and others, as we get this out--what are their concerns 
about what they perceive as perceived issues. As a State, I 
will tell you I will never want to agree to something that is 
final, if I feel that it is going to put the State at greater 
exposure because we underestimated costs.
    So, again, we have gotten to the point now where we have 
enough of this to start reaching out to our partners at the 
State and local levels to start sharing some of these ideas. 
But I think if we break it into two pieces on complex 
projects--a design phase, we get everything done to where we 
say, ``This is what we are doing,'' and then, once we have 
that, we issue payment--I think that, for complex projects, 
would streamline the process.
    That design phase, quite honestly, sir, may take us several 
years. But once we are done, and we get the final payment 
requirements for construction, then we are not there through 
the life of the project. We are done. They are able to finish 
it.
    And again, the other approach, which is even more 
streamlined, but of greater risk, is to estimate what the value 
of the loss was, and treat it like an insurance payment, and 
then not deal with any additional oversight. But that would 
mean that we would have to release the applicants from a lot of 
the oversight we are required to have, through a variety of 
Federal programs, including historical, environmental, and 
other types of fiduciary requirements.
    But just like if your home burns down, you don't have a 
mortgage, and your insurance pays you the check, they don't 
tell you how to spend the money. We do. And that would be a 
much more radical approach that would definitely take the input 
of Congress, of how do we treat these, is this going to be an 
insurance payment, or is this going to be a reimbursement for 
actual cost, as close as we can make it an estimating process.
    Mr. Denham. Thank you. Thank you. I believe we have learned 
a lot this year. We look forward to working with you as we do 
the FEMA reauthorization, as well as streamlining this. But 
certainly we have learned that there are some great 
improvements that can be made. So thank you to each of you for 
your testimony today. Your comments have been very helpful.
    We will now recognize the second panel of witnesses: Mr. 
Mike Dayton, acting secretary, California Emergency Management 
Agency; Mr. Keith Stammer, director, Joplin/Jasper County 
Emergency Management Agency; Chief William Metcalf, second vice 
president, International Association of Fire Chiefs; and Mr. 
Joe Wilson, president of Federal Signal's Safety and Security 
Group, Federal Signal Corporation.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Denham. Without objection, so ordered. Since your 
testimony has been made part of the record, the subcommittee 
would request that you limit your oral testimony to 5 minutes. 
In fact, we would actually recommend less than 5 minutes, if 
possible, because votes have been called early today.
    Mr. Dayton, you may proceed.

    TESTIMONY OF MIKE DAYTON, ACTING SECRETARY, CALIFORNIA 
 EMERGENCY MANAGEMENT AGENCY; KEITH STAMMER, DIRECTOR, JOPLIN/
  JASPER COUNTY EMERGENCY MANAGEMENT AGENCY; CHIEF WILLIAM R. 
      METCALF, EFO, CFO, MIFIREE, SECOND VICE PRESIDENT, 
   INTERNATIONAL ASSOCIATION OF FIRE CHIEFS; AND JOE WILSON, 
   PRESIDENT, SAFETY AND SECURITY GROUP, INDUSTRIAL SYSTEMS 
              DIVISION, FEDERAL SIGNAL CORPORATION

    Mr. Dayton. Well, great. Good morning, Mr. Chairman. It is 
great to see you, and I appreciate the opportunity to be here 
today.
    Since January of 2010, California has received four major 
disaster declarations. So more than 75 percent of California's 
population is covered under at least one of these declarations. 
Together, these incidents caused nearly $280 million in 
damages. And this does not include the $50 million in damages 
we sustained during the March storm event. Unfortunately, FEMA 
denied our request for Federal assistance for this incident.
    During this same period of time, California has received 10 
fire management assistance grants to help offset the $43 
million it cost to suppress these fires. As significant as 
these numbers are and sound, they pale in comparison to what we 
anticipate when--not if--a major earthquake occurs in the Bay 
Area or Southern California.
    You know, the greatest lesson we learned from the Japan 
earthquake and tsunami was to not underestimate the hazard. We 
have taken this lesson to heart, and are preparing for the most 
catastrophic scenarios.
    Our catastrophic plans for the Bay Area and Southern 
California assume a greater than 7.8 magnitude earthquake, 
which would result in more than 500 separate fires, more than 
3,000 casualties, and over 600,000 families needing shelter. 
Major disruptions to the lifelines will occur. Transportation 
routes will be down. Gas supply, water supply, electrical 
systems, communications will be a challenge. Mass care and 
sheltering needs for tens of thousands. A catastrophic 
earthquake will present unprecedented logistical challenges for 
California and the Nation.
    In addition to these grim realities, a great quake along 
the Hayward Fault could compromise the integrity of the delta 
levee system, which, as you know, provides the irrigation 
supply for Central Valley farmers, and also 20 million 
residents in Southern California. The prospect and 
inevitability of such a devastating calamity focuses our 
efforts on preparing for such an event through our protection, 
mitigation, response, and recovery efforts.
    And very briefly, I would like to highlight our efforts in 
these mission areas, and recognize FEMA's contributions, and 
also suggest ways in which FEMA and Congress could make these 
investments more efficient and more effective.
    With respect to protection and mitigation, we have made 
great strides in hardening critical infrastructure sites using 
the Buffer Zone Protection Program. We have also made great 
progress in seismically retrofitting public buildings like 
schools, hospitals, and other public infrastructure, such as 
roads. But much more needs to be done to provide incentives to 
individual homeowners, especially multifamily soft-story 
structures that are in known liquefaction zones in the Bay 
Area.
    And it is absolutely imperative that FEMA streamline and 
consolidate requirements for environmental, historic, and 
benefit cost reviews. As the panel before us spoke about, 
unfortunately mitigation projects can languish in red tape for 
years, as is the case with the East Bay Hills mitigation 
project, which California received--initially applied for 
grants in 2005 and 2006, and the same trees, the eucalyptus and 
Monterey pines that had grown up and were the source of 
California's most devastating fire have grown back. But the 
mitigation effort is still tied up in environmental review.
    On the positive side, FEMA has been an invaluable partner 
in developing catastrophic plans for the Bay Area and Southern 
California. Work is also being done on a catastrophic plan for 
the Cascadia subduction zone in the Central Valley and the 
delta levees.
    First and foremost, in the response mission area, it is 
critical to maintain the investment in the 28 USAR teams. These 
are absolutely essentially for large-scale incidents.
    Secondly, given the frequency and intensity of California's 
fires in the wildland/urban interface, I must urge you to 
fundamentally change the direction and focus of the assistance 
to fire fighters grant program. The current process is 
ineffective, inefficient, it lacks strategy, and it runs 
counter to any attempt to regionalize these investments. A 
much, much better approach would be to block grant these funds 
to States, and let us build regional capabilities that, in 
turn, will be national assets.
    With respect to recovery, I must first commend FEMA for the 
quick and efficient process they use to process the fire 
management assistance grants. Decisions are made at the 
regional level, and there is clear guidance. Unfortunately, I 
cannot offer the same observation for the process of applying 
for a major disaster declaration. It is unduly cumbersome, 
bureaucratic, even pedantic. FEMA should have clear guidelines 
and have a greater consideration for the cumulative effects of 
multiple disasters on a region or a State.
    There are a lot of unknowns in disasters. Whether or not 
FEMA will provide financial assistance shouldn't be one of 
them. Thank you.
    Mr. Denham. Thank you, Mr. Dayton.
    Mr. Stammer?
    Mr. Stammer. Good morning, Subcommittee Chairman Denham and 
Ranking Member Norton, and to the members of the subcommittee 
as well. Thank you for the opportunity to discuss improving 
emergency management, especially in these areas that have been 
discussed. This discussion will, of necessity, focus on the EFI 
tornado, which struck Joplin and Jasper County on May 22, 2011, 
as well as the emergency management response, as represented by 
the Federal Emergency Management Agency, and how the local 
agencies view that response.
    Let me begin by stating that I have been in the business of 
emergency management for 19 years. I have been through several 
natural and manmade disasters during those years, none of which 
compared to the Joplin Tornado, as it has become known. I have 
worked with State emergency management agencies from two 
States, as well as FEMA, and have become familiar with their 
mission and methods of operations. I have had extensive hands-
on experience in managing disaster scenes, as well as being an 
instructor in the National Incident Management System, as well 
as the Incident Command System, both standards of the industry 
for disaster management.
    I, therefore, feel qualified to state that, without a 
doubt, the FEMA of today is not the FEMA of yesteryear. In 
times past they have been accused of being slow to respond, 
distant when on scene, and hard to work with. This was not the 
case this time. I can truly say that FEMA's response to the 
Joplin Tornado was a positive experience.
    The Joplin Tornado struck at approximately 1730 hours on 
Sunday evening, May 22. I was in the emergency operations 
center, so I put out the call for aid to our local partners, 
then to the Missouri State Emergency Management Agency, both 
calls being standard operating procedure per our local 
emergency operations plan.
    When I asked the State of Missouri about FEMA, I was 
informed that they were already en route. FEMA personnel began 
to arrive within hours of the tornado, with initial response 
personnel on scene no later than early that next morning. We 
were most pleased to see them in the emergency operations 
center, as we understand the crucial role FEMA plays in 
partnering with State and local entities to ensure a quick and 
adequate response to the current and ongoing needs of our 
citizens.
    FEMA personnel immediately met with our local officials, 
administrative personnel, and response agencies to get an 
overall view of what had happened, and what their role might 
be. We found them to be neither invasive nor authoritative, but 
rather, supportive and collaborative. This, indeed, was a 
breath of fresh air to all of us.
    Some excellent examples of what FEMA was able to do for us 
at the local level include: GIS mapping; Federal Coordinating 
Officer on scene; FEMA liaison assigned to our city manager; 
and, of course, the successful story of the mobile housing 
units.
    That said, there are always ways to improve response and 
recovery efforts, especially on incidents of this scale. The 
real enemy in such situations as the Joplin Tornado is time. 
Once the myriad efforts required to effect a successful 
immediate response are complete comes the question: What next? 
For us, the immediate answer was debris removal. We were given 
an Expedited Debris Removal completion date of August 7, which 
we completed by August 6. Needless to say, time was of the 
essence.
    While hardly unique to our situation, an overriding problem 
we faced was the realization that there were three separate 
entities on scene, each trying to work the problem at hand. 
These three were: local government, State government, and FEMA. 
Trying to communicate among these three was a continual chore, 
especially when the human element was factored in. State and 
Federal people were constantly changing out, resulting in some 
confusion as to who occupies what roles. Beyond the fact that 
new introductions needed to be made all the way around, each 
new person seemed to have a somewhat different understanding of 
the rules and program, resulting in more time needed to 
integrate them into the current effort.
    May I suggest three observations which I feel would 
decrease the amount of time required to facilitate the response 
and recovery efforts? I realize that these are neither far-
reaching nor national in scope, but I assure you they are of 
concern to we who find ourselves at the tip of the spear during 
such an incident as the Joplin Tornado. These three are: a 
current roster of all FEMA personnel on scene; a menu of 
services provided by FEMA; and, finally, fine-tuning the 
Expedited Debris Removal program.
    In summary, I was most impressed and pleased with the role 
FEMA played and continues to play in our response and recovery 
efforts. We are thankful for the effort of our Federal 
Government and our elected officials in facilitating a response 
and recovery that can only be described, in our world, as 
successful.
    Thank you for this opportunity.
    Mr. Denham. Thank you.
    Chief Metcalf?
    Chief Metcalf. Good morning, Chairman Denham, Ranking 
Member Norton, and members of the subcommittee. I am Chief 
William Metcalf, of the North County Fire Protection District 
located in the San Diego suburb of Fallbrook, California, and I 
am the second vice president of the International Association 
of Fire Chiefs. I thank the committee for the opportunity today 
to represent the views of local first responders.
    My testimony today is based on my personal experience with 
some of the major disasters this Nation has faced over the past 
decade. During the response to Hurricane Katrina in 2005, I was 
in Baton Rouge, coordinating assistance to fire departments 
throughout the area impacted by that storm. And in 2007, I 
commanded the mutual aid response to the California wildland 
fires in my home of San Diego County, where thousands of homes 
were lost, 250 in my own community. From these experiences, I 
firmly believe that an effective national mutual aid system is 
the key to an efficient emergency response.
    Emergency response is primarily a local responsibility. 
However, this year's numerous natural disasters have 
demonstrated that local jurisdictions can be overwhelmed. And 
when that happens, they must rely on local, State, and national 
mutual aid systems. An effective mutual aid response that saves 
lives and limits damage also will cut the cost to the American 
taxpayer.
    My written testimony describes 10 components required for 
an effective mutual aid system. And today I would like to 
highlight some of these important concepts.
    The first is scalability, and scalability is a major 
component of an effective mutual aid system. Local 
jurisdictions are the first responders to any type of disaster. 
If it is a major event, we recognize that there should be no 
expectation of Federal assistance for the first 24 to 72 hours. 
So, there must be a system in place to help those overwhelmed 
local responders in the meantime.
    Today most local neighboring communities have mutual aid 
agreements that we use every day to respond to incidents. And, 
as fire and EMS budgets are decreased in these economic times, 
we, as chiefs, rely even more on our neighbors to help protect 
our communities. When our local communities are overwhelmed, 
the region activates its regional or statewide mutual aid 
system.
    Working with FEMA, the IAFC has developed the intrastate 
mutual aid system program. Using the examples of California, 
Ohio, Illinois, and Florida, the IAFC has worked with 30 States 
to develop statewide mutual aid systems that are capable of 
mobilizing resources without assistance. Another eight States 
have completed exercises and are in the process of being able 
to attain this goal. Then, when a State requires interstate 
assistance, it uses the Emergency Management Assistance 
Compact, or EMAC. And EMAC is composed of all 50 States, and 
was ratified by Congress in 1996.
    An effective mutual aid system also requires the timely 
reimbursement of the resources. In the past, local fire and EMS 
departments have had to wait up to 2 or 3 years for 
reimbursement after a nationwide mobilization. That cannot 
happen in today's fiscal environment. We recommend the creation 
of a transparent system to allow local public safety agencies 
to track their reimbursement requests through the interstate 
and Federal processes. A transparent reimbursement system will 
assure accountability.
    Interoperable communications are another vital component to 
an effective mutual aid system. During 9/11, Hurricane Katrina, 
and the recent tornado in Joplin, Missouri, emergency 
responders faced problems with communications interoperability. 
Congress has an opportunity to resolve this problem this year.
    The IAFC, other organizations representing the leadership 
of public safety and State and local governments, and the 
chairmen of the 9/11 Commission all support bipartisan 
legislation to establish a nationwide, wireless public safety 
broadband network. This legislation also must allocate the D-
Block in 700 megahertz band to public safety. Once this network 
is built, any local fire department could plug in and 
communicate with other fire, EMS, and law enforcement agencies 
during a major disaster.
    In addition, there must be a nationwide credentialing 
process, so that incident commanders know the qualifications of 
responders on scene. FEMA has recently released credentialing 
guidance documentation, and the IAFC supports FEMA's efforts in 
this area. However, we recommend that FEMA be mindful of the 
cost of compliance with the FIPS-201 standard, and ask the 
agency to work with State and local stakeholders to develop 
less expensive and more user-friendly methods of compliance.
    And finally, I would like to mention the importance of 
Federal grant funding to an efficient emergency response 
system. In a major earthquake, hurricane, or terrorist attack, 
there are few Federal civilian fire or EMS resources, 
especially early in the event. So, local first responders from 
around the Nation initially will be engaged. However, the cuts 
to local public safety budgets today are reducing the Nation's 
capability to respond to these major disasters.
    The DHS and FEMA grant programs build this capability, 
while not supplanting local funds. In addition, the grants 
provide incentives for localities and regions to plan, train, 
and exercise together to better respond to future disasters, 
both natural and human-made.
    Thank you again for the opportunity to address this 
subcommittee.
    Response to a disaster is primarily a local responsibility. 
However, it can quickly escalate to a State or national 
response, depending on the magnitude of the incident. Effective 
and well-resourced State and local mutual aid systems will 
reduce the dependency on Federal resources and reduce the 
overall cost of disaster response and recovery.
    On behalf of America's fire and EMS chiefs, I would like to 
thank you for holding this hearing, and look forward to 
answering your questions. Thank you.
    Mr. Denham. Thank you, Chief Metcalf.
    Mr. Wilson?
    Mr. Wilson. Mr. Chairman, Ranking Member Norton, members of 
the subcommittee, thank you for allowing me to appear before 
you today to provide testimony on important matters of public 
safety and emergency management. I am Joe Wilson, president of 
the industrial systems division, Safety and Security Group for 
Federal Signal Corporation.
    Federal Signal is a longstanding supplier to the emergency 
management industry. We design, manufacture, install, and 
integrate mass notification systems. Our systems are used for 
tsunami warning, community warning, military, campus alerting, 
and in and around nuclear power plants and industrial 
facilities.
    On any given day, news headlines highlight disasters or 
other emergencies across the United States and cause Americans 
to evaluate their own levels of safety. Whether looking back 10 
years to the tragedy of the 9/11 attacks, or remembering the 
high levels of natural disasters 2011 has wrought, we are 
constantly reminded of the imperative to be fully prepared for 
the unexpected.
    It is during these times of economic challenge when local 
communities rely most upon FEMA to acquire public warning and 
notification systems. In fact, Federal Signal's 2011 public 
safety survey conducted by Zogby International recently found 
that half of Americans feel they are less safe today than they 
were prior to 9/11. And almost 4 out of 10 consider their 
community to be either slightly or completely unprepared in the 
event of an emergency.
    FEMA has an important role to play in establishing 
standards and promoting best practices throughout the Nation. 
But local community needs differ widely. National or even State 
priorities are not always in synch with the demand of local 
communities. For that reason, decisions about how local 
communities utilize national grant dollars should be made at 
the local level.
    It was not long ago that those Government agencies charged 
with the responsibility for issuing warnings to the general 
public depended almost exclusively on outdoor sirens and radio 
and television broadcasts. But now interoperability is also a 
key concern for public safety officials, who must consider a 
much broader spectrum of communication technologies. This 
includes everything from landline and cell phones, pagers, 
radios, text messaging, and public address systems, to a 
variety of IP-based technologies, including email, Instant 
Messaging, smartphones, and even social networking technologies 
such as Twitter and Facebook.
    Fortunately, there are multiple ways to achieve national 
objectives. Most current funding is focused on the development 
of completely new technology. But these costly systems are not 
the only way to achieve interoperable communications. Many 
local communities could achieve this goal through IP-based 
software solutions that leverage existing communications 
infrastructure at a significant saving over a widescale 
replacement.
    Today's grant funding often works against the leveraging of 
existing infrastructure, thus costing communities and the 
National Government more to solve interoperable communication 
challenges. Allowing States to make decisions about how they 
use interoperable grant funds would foster continued 
advancement of new technologies designed to bridge analog and 
digital radio worlds with IP communications and public 
communications networks.
    The Integrated Public Alert and Warning System has largely 
been considered a solution for effective public warning. The 
Nation's commitment to IPAWS brings significant value to the 
community. Although the system was designed to reach all U.S. 
citizens, FEMA recognizes that most alerts are issued at a 
State and local level. Unfortunately, there is no one-size-
fits-all approach to mass notification. Most locally based 
solutions require a customized approach.
    It is also important to consider how people prefer to 
communicate during an emergency. Our survey revealed that one 
in four Americans would prefer to be notified about an 
emergency by a telephone call or by television. Eighteen 
percent say they would like to be notified by text message, and 
15 percent would like to be notified via outdoor loudspeakers.
    While advanced technology and messaging formats enable more 
effective emergency warning systems, a host of human factors, 
such as age, physical disabilities, and cultural differences, 
must be considered in the overall emergency plan.
    Though today's technology has certainly expanded our 
communication options, it should be evident that these 
technical advancements have also placed a whole new set of 
concerns on the table.
    In conclusion, FEMA plays an important role in establishing 
standards and fostering the adoption of best practices. Its 
leadership in facilitating and leveraging of new technology and 
establishing a framework for the sharing of technology is a 
necessary job that only an agency such as FEMA can perform. 
Establishing effective processes which provide opportunities 
for both industry leaders and local emergency managers to 
participate in the development of these systems can help ensure 
widescale support of its programs. This is a critically 
important step in raising Americans' confidence that public 
safety is truly a priority.
    Thank you, and thanks for this opportunity to speak today.
    Mr. Denham. Thank you. Mr. Dayton, as part of the FloodSAFE 
California initiative, the California Department of Water 
Resources is involved with the delta flood emergency 
preparedness response and recovery program. The stated goal of 
this program is to promote effective multi-agency emergency 
response. Can you tell me what Cal EMA's involvement is with 
the State program?
    Mr. Dayton. Yes, sir. We are a great partner with the 
Department of Water Resources. We just completed a large-scale 
exercise, Golden Guardian, that I think you are aware of that, 
that exercised our capability to respond to an event. And then 
we are also working with them to identify additional funding 
sources to shore up those levees.
    Mr. Denham. And are you aware of the Federal MOU regarding 
the challenges that the delta faces?
    Mr. Dayton. Yes. Yes, sir, I am.
    Mr. Denham. And do you believe having FEMA's involvement in 
these efforts is important for the success of the program?
    Mr. Dayton. It absolutely is. Nancy Ward has been a great 
partner in region nine, the administrator for FEMA.
    Mr. Denham. Thank you.
    Mr. Dayton. Thank you.
    Mr. Denham. And Mr. Stammer, as we saw in the charts here 
earlier from Mr. Barletta's district, debris removal is a 
critical first step in recovering from a disaster. You comment 
on FEMA's new Expedited Debris Removal program. What 
improvements do you believe need to be made to the debris 
removal program to make it more efficient?
    Mr. Stammer. We understood from the get-go, sir, that the 
debris removal program is fairly new. I believe it has only 
been used about three times before on the level that we had 
done. One of the things that we have recommended is that there 
be a combination not only of the Expedited Debris Removal 
program, but also afterwards, in terms of such things as 
foundations and such. They were separated, and we have asked 
that those be considered to be put together as one program, so 
that we don't have to go in and come out and then go in and 
come out.
    The other thing would be that such things as the right of 
entry forms and such would be more put together and made whole 
prior to the actual incident. Again, I think that was a factor 
of the--this has not been done very often. Once we worked 
through that entire process, we found that it worked very 
smoothly.
    Mr. Denham. Thank you. And Chief Metcalf, can you talk 
about your experience, dealing with the wildland fires? And 
what improvements do you believe should be made in FEMA's 
response to such disasters?
    Chief Metcalf. We believe that FEMA already is proving a 
valuable partner when it comes to response to wildland fires. 
And probably the most recent specific example of the results of 
their work is the development of mutual aid systems that I 
spoke about in my testimony.
    Both Texas--Texas is a State that, prior to the 
implementation of the intrastate mutual aid system program that 
we worked on with FEMA--Texas was not able to really 
effectively mobilize resources on a mutual aid basis. They were 
one of the earliest States that participated in that process. 
They were one of the earliest States to build a State plan, to 
exercise that plan and test that plan, and we all got to watch 
the much-improved ability of the State of Texas to mobilize 
fire resources in response to the recent wildland fires this 
season in that State.
    So, from that perspective of building capacity at the local 
level, of providing training and helping to put in place 
systems at the local level to respond to these incidents, FEMA 
has already accomplished good things. And we believe that 
continued efforts along that way will improve the wildland fire 
response.
    Mr. Denham. Thank you. And Mr. Wilson, the Integrated 
Public Alert and Warning System Modernization Act, which would 
establish a framework and timetables for the development of 
IPAWS, specifically would ensure FEMA consults with and gets 
input from key stakeholders as this system is developed. How 
important do you believe input from State and local officials 
in the private sector is to developing an effective system?
    Mr. Wilson. We think it is very important, especially--
again, as most events are local in nature, when there is a case 
when a national broadcast has to be made, there has to be a 
means to do that. And that is what IPAWS is part of.
    But I think having the local folks be able to contribute 
their ideas is critical, because each State has unique needs, 
as we can see from the variety of natural disasters that we 
have spoken about today. And so, I think it is very critical.
    Mr. Denham. Thank you. And I, as well as this committee, 
have a bill that is moving forward on this issue. So we will 
have a number of other questions for you. And I actually have a 
number of other questions for each of you. But in the sake of 
time with early votes now being called, I do apologize, but we 
are going to present those to you in writing, as well.
    I would ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing, and unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    [No response.]
    Mr. Denham. Without objection, so ordered. I would like to 
thank our witnesses again for their testimony today. And if 
there are no other Members having anything to add today, the 
subcommittee stands adjourned. Thank you.
    [Whereupon, at 10:31 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
